          U.S. Department of Energy
          Office of Inspector General
          Office of Audit Services




 Audit Report


Management Controls over Changes
to the Idaho Cleanup Project Contract
Baseline




OAS-M-08-10                         July 2008
                               Department of Energy
                                    Washington, DC 2 0 5 8 5

                                   J u l y 30, 2008


MEMOI<AhlDUM F F & K R ,                     IDA110 OPERATIONS OFFICE

FROM:
                         .Assistant Inspector General
                            for Environment, Science, and Corporate Audits
                         Office of Inspector General

SUBJECT:                INFORMATION: Audit Report on "Management Controls over
                        Changes to the Idaho Cleanup Project Contract Baseline"

BACKGROUND

In Fiscal Year 2005, the Department of Energy (Department) awarded a Cost-Plus-
Incentive-Fee coiltract to CH2M + WG Idaho, LLC (CWI) to lead environmental cleanup
of its Idaho National Laboratory site. CWI's contract requires it to treat and dispose of
radioactive waste at the site. The contract runs from May 1,2005 through September 30,
201 2, and has a target cost (cost baseline) of $2.4 billion with a target fee of $175
million. If work is conlpleted over or under target cost, the Department will share the
savings or cost with CWI on a 30170 percent basis. For example, if CWI completes the
work $1 million under target, its fee will increase by $300,000. If it exceeds the target
cost by the same amount, its fee would be sinlilarly reduced. This fee structure provides
strong incentive for CWI to control costs in perfomling its cleailup work.

More than nine months elapsed between the time the final Departmental Request for
Proposal (KFP) was issued and the time the CWI contract became effective. During that
time, some of the work planned for the CWI contract was accomplished by the incumbent
contractor. Also, additional work not originally contemplated was added to CWI's
contract. The contract recognized the potential for such conditions and provided the
contractor a one-time opportunity to identify discrepancies between the anticipated and
actual status of completed work. The Department and CWI entered negotiations and
adjusted the contract's Statement of Work through a contract modification issued on
January 18, 2007. We initiated this audit to determine whether changes to the Idaho
Cleanup Pro-ject contract cost baseline were appropriate.



For a majority of baseline changes, the Department properly negotiated the Idaho
Cleanup Project contract. Specifically, we concluded that most of the changes reflected
fair and reasonable cost adjustments. However, for one significant activity, three changes
were made that were not reasonable. Specifically,

       Two of these changes completely removed work for processing two waste streams
       froin CWI's contract yet did not remove the $6.2 million cost associated with
       those tasks; and,
                                              2


      •    One of the changes reduced the amount of work associated with constructing a
           shielded containment building without a commensurate reduction of $5.9 million.

After consultation with the management officials that negotiated the changes in scope and
cost for the CWI contract, we concluded, and they acknowledged, that the costs were not
appropriately reduced. In particular, we noted that the Department accepted the proposed
cost reductions submitted by CWI without performing required cost/price or technical
analyses. As a consequence, the CWI cost baseline may be overstated by as much as
$12.1 million. Additionally, the Department is at risk of paying unnecessary fees to CWI
that could amount to as much as $4.3 million.

To its credit, the Department has developed processes to increase the scrutiny and review
of future changes to the Idaho Cleanup Project contract. However, we noted that these
processes may not adequately address work scope reductions noted in this report.
Accordingly, we have made several recommendations designed to strengthen internal
controls over this area and help Idaho avoid similar problems during upcoming CWI
contract modification negotiations.

MANAGEMENT REACTION

Management concurred with our recommendations and proposed corrective actions.
While management did not agree that CWI may earn unnecessary fess and believed that
the negotiation in its entirety was fair and reasonable to the government, it pledged to
implement controls to prevent recurrence of the problems identified in this report.
Management's comments can be viewed in their entirety in Appendix 3 of the report.

Attachment

cc:       Acting Deputy Secretary
          Under Secretary of Energy
          Chief of Staff
          Assistant Secretary for Environmental Management
REPORT ON MANAGEMENT CONTROLS OVER CHANGES TO THE
IDAHO CLEANUP PROJECT CONTRACT BASELINE


TABLE OF
CONTENTS


  Material Differences Negotiations

  Details of Finding                                1

  Recommendations and Comments                      4


  Appendices

  1. Objective, Scope, and Methodology              6

  2. Related Audit Report                           8

  3. Management Comments                            9
MATERIAL DIFFERENCES NEGOTIATIONS

Baseline Cost   In most instances, the Department of Energy (Department)
Negotiations    appropriately negotiated the changes that occurred to the CH2M ♦
                WG Idaho, LLC (CWI) contract. The cost adjustments for work
                scope increases to the Idaho Cleanup Project contract appeared to
                be fair and reasonable. Additionally, removal of work scope for 24
                of the 25 cost reductions appeared to be appropriate. However, the
                remaining reduction, which accounted for 13 percent of the total
                agreed upon cost adjustment, was not reasonable in our judgment.
                Specifically, the Department did not reduce baseline operational
                costs for two waste streams that were completely removed from
                CWI's contract. In addition, cost reductions for capital
                expenditures associated with constructing a shielded containment
                building were not commensurate with the reduced work scope.

                                             Operational Costs

                The Department did not reduce baseline operational costs for two
                of the three waste streams that were removed from CWI's contract.
                When the final Request for Proposal (RFP) was released, "rejected
                waste" was a key part of the Waste Management and Disposal
                work at the Radioactive Waste Management Complex. The
                "rejected waste" was primarily comprised of Remote Handled –
                Transuranic1 waste (RH-TRU) and other waste streams that did not
                meet the acceptance criteria specified in the Advanced Mixed
                Waste Treatment Project (AMWTP) contract, to include:


                                   Waste Stream                             Quantity (drums)

                    1   Low-Activity RH-TRU Waste                                       200
                    2   May or May Not be Categorized as RH                           1,400
                    3   RH Managed as RH-TRU                                            450
                    4   Other Waste Not Meeting AMWTP                                   100
                        Acceptance Criteria

                        Total                                                         2,150


                In responding to the RFP, CWI provided a baseline estimate to
                receive, safely store, and dispose of these four "rejected waste"
                streams. However, when its contract became effective,
                responsibility for waste streams two, three, and four was

                1
                 Remote Handled – Transuranic waste is defined as waste containing a nuclide
                with an atomic number greater than that of uranium (92) and which has a
                measured radiation dose rate at the container surface of between 200 mrems per
                hour and 1,000 rems per hour and, therefore, must be shielded for safe handling.


Page 1                                                                  Details of Finding
         transferred to a different contractor. Even though a significant
         portion of the waste streams were removed from CWI's contract,
         the Department did not remove the $6.2 million of associated
         operating costs from its baseline. Costs that should have been
         removed from the baseline but were not, included:

              •   $4.2 million for the retrieval, characterization, treatment,
                  certification, packaging, and disposition of waste that may
                  or may not be categorized as RH waste (waste stream 2);
                  and,

              •   $2 million for the retrieval, characterization, treatment,
                  certification, packaging, and disposition of RH waste
                  managed as RH-TRU waste (waste stream 3).

         It should be noted that costs were correctly removed from the
         baseline for operational costs associated with other waste not
         meeting the AMWTP acceptance criteria (waste stream 4).
         Management officials acknowledged that the costs we identified
         should have been removed but were unable to provide
         documentation or analysis to explain why some operational costs
         were removed while others were not.

                                        Capital Costs

         Reductions for capital costs were not commensurate with the
         corresponding reductions in work scope. As part of CWI's
         proposal, it planned to spend approximately $9.1 million to
         construct a multi-purpose shielded containment building by
         modifying an existing facility (WMF 628) to process the four
         "rejected waste" streams. Additionally, the CWI proposal assumed
         a fifth class of waste - Alpha Low-Level Mixed Waste (Alpha
         LLMW)2 – would be processed in the modified facility but outside
         the shielded containment cell. When three of the waste streams
         were removed from CWI's contract, only two waste streams
         remained dependent on this "to-be-constructed" facility: 200
         drums of low activity RH-TRU waste, which required shielded
         containment and 1,890 drums of contact-handled Alpha LLMW.
         However, the Department provided WMF 628 to another
         contractor; therefore, the facility was no longer available to handle
         these two remaining waste streams. Accordingly, CWI decided to
         handle the 200 drums of low-activity RH-TRU waste in a facility
         that was already funded through other work scope in the contract

         2
          Alpha low-level mixed waste is defined as waste containing radionuclides with
         half-lives greater than 20 years and with alpha particle activity of between 10
         and 100 nanocuries per gram mixed with hazardous constituents.


Page 2                                                          Details of Finding
                      and which was designated to have a shielded containment
                      capability. Therefore, the only remaining need for capital costs
                      was to construct or modify a facility to process the Alpha LLMW.

                      Given these circumstances, the cost reduction made to the baseline
                      was not commensurate with the work reduction. In submitting its
                      baseline changes to the Department, CWI reduced the estimated
                      capital cost for treating "rejected waste" from $9.1 million to
                      $5.9 million. However, considering the type of waste that
                      remained to be treated and the existing facilities available at Idaho
                      to treat such waste, we believe that the revised estimate was not
                      reasonable. Specifically, in developing the new estimate, no
                      consideration was given to the type or complexity of waste
                      requiring treatment. In expressing this concern to CWI
                      management, they stated that they do not yet have a cost estimate
                      for the facility required to handle contact-handled Alpha LLMW.

Analyses of           The Department did not perform cost/price analyses for the CWI
Contractor Proposal   baseline changes to ensure that all contract changes were
                      appropriate. According to the Department's Acquisition Guide,
                      either a cost or price analysis must be performed for contract
                      modifications. However, when negotiating the cost reductions for
                      modifications in the contract, the Department did not perform
                      either of these analyses. Had the Department conducted cost/price
                      analyses by comparing the proposed operational costs for the
                      original waste streams against the CWI proposal, it may have
                      noted that CWI had not adequately removed costs for those waste
                      streams that had been eliminated. Also, had cost/price analyses
                      along with a technical review been performed, the Department
                      would likely have identified discrepancies in the manner CWI
                      adjusted capital costs. Among other things, it may have noted that:

                          •   CWI rounded up waste percentages resulting in an
                              increase in cost of $610,000, with no tangible or apparent
                              benefit to the Government;

                          •   Capital costs for the shielded containment building to
                              process the 200 drums of RH-TRU that remained in their
                              contract were not needed because existing capabilities
                              were available; and,

                          •   Unlike RH waste, which requires shielded containment
                              capabilities, Alpha LLMW is contact-handled and does
                              not require such containment and as noted earlier, can be
                              treated in a similar and less expensive facility. However,
                              Alpha LLMW accounted for approximately 90 percent of


Page 3                                                                Details of Finding
                           the waste quantity used to justify the capital costs retained
                           for construction of a shielded containment building.

                   In discussing these concerns with Department officials, they
                   agreed that in hindsight, it is now apparent that the costs CWI
                   estimated will not be as high as negotiated for the work scope
                   changes discussed in this report.

                   The Department has developed a formal, documented process for
                   addressing work increases and managing baseline changes to the
                   Idaho Cleanup Project contract. However, it has not developed a
                   process specific to work scope reductions, the focus of weaknesses
                   identified in this report. The addition of a graded review process
                   to the newly developed procedures could help the Department
                   identify problems similar to those encountered with the CWI
                   baseline change. Additional cost/price analyses and technical
                   reviews, based on materiality and risk, could be added to
                   specifically consider the types of issues discussed in this report.

Cost of Scope of   Problems with the Department's analyses and negotiations process
Work Reductions    resulted in overstatement of the CWI baseline by as much as
                   $12.1 million. Because this baseline is a critical part of
                   determining the appropriate level of contractor fee, by not
                   adjusting the baseline to reflect accurate estimates of work to be
                   performed, the Department could potentially pay $4.3 million more
                   in fee than necessary. Addressing these issues is critical and
                   should help the Department avoid future recurrences during
                   upcoming contract negotiations.

RECOMMENDATIONS    To address the issues discussed in this report and help prevent
                   recurrences of similar problems during contract negotiations, we
                   recommend that the Manager, Idaho Operations Office:

                       1. Address cost baseline changes relating to the issues
                          identified in this report at the next available negotiation
                          opportunity; and,

                       2. Develop and formalize processes to address scope of work
                          reductions related to the CWI contractual baseline.

MANAGEMENT         Management concurred with both recommendations. In response
REACTION           to the first recommendation, management stated that the
                   government has a positive obligation to achieve fair and reasonable
                   settlements in negotiations, taking all factors into consideration.




Page 4                                          Recommendations and Comments
           Management committed to improving its negotiation
           documentation to assure that all relevant factors are addressed in a
           manner that captures the contribution of issues having a bearing on
           the final settlement. In response to the second recommendation,
           management agreed with the recommendation to formalize its
           process to address work reductions to the baseline. Management
           identified specific steps it would take to improve and formalize its
           processes for managing changes to the contract work scope, and
           management has established a specific timeframe for making these
           changes.

           However, management did not concur with the monetary finding
           that the Department may pay $4.3 million more in fee than
           necessary. Management believed that the material differences
           negotiation in its entirety was fair and reasonable to the
           government. Management stated that contract provided a one-time
           opportunity for the contractor to identify any material differences
           in the actual status of completed work compared to the work that
           was anticipated in the contract Request for Proposal. This resulted
           in the settlement of the material differences as a bilateral
           modification to the contract. The contractor signed a release for
           this settlement at the conclusion of negotiations.

AUDITOR    Actions taken or planned by management are responsive to our
COMMENTS   recommendations. However, as for the disagreement about the
           $4.3 million of potentially excessive fees, this figure represents
           both the portion of current target fee that is associated with the
           identified $12.1 million plus the 30 percent additional fee that can
           be earned for having costs that are $12.1 million less than target
           cost. Our calculation was based on contractually established
           provisions. Although we agree that the material differences
           negotiations were generally fair and reasonable, the issues
           identified in this report were the notable exception. The estimated
           monetary impact was designed to provide management with the
           magnitude or impact associated with these exceptions.




Page 5                                                            Comments
Appendix 1

OBJECTIVE     The objective of this audit was to determine whether changes to
              the Idaho Cleanup Project contract cost baseline were appropriate.

SCOPE         The audit was performed from September 2007 to April 2008 at
              the Idaho Operations Office (Operations Office) and the offices of
              CH2M ♦ WG Idaho, LLC (CWI) in Idaho Falls, Idaho. The scope
              of the audit was limited to changes to the Idaho Cleanup Project
              contract before September 25, 2007.

METHODOLOGY   To accomplish the audit objective, we:

                  •   Obtained and reviewed Department of Energy
                      (Department) guidance and requirements, including work
                      instructions and the CWI contract;

                  •   Researched Federal and Departmental regulations;

                  •   Interviewed key personnel at the Operations Office and
                      CWI;

                  •   Reviewed CWI's cost and technical proposals;

                  •   Reviewed the contract files for modifications made to the
                      Idaho Cleanup Project contract; and,

                  •   Analyzed the methodology and documentation for the
                      changes made for material differences.

              We conducted this performance audit in accordance with generally
              accepted government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objectives. Specifically, we tested
              controls with respect to the Department's management of changes
              to the Idaho Cleanup Project contract's baseline. Because our
              review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed at the time of
              our audit. Also, we considered the establishment of performance
              measures in accordance with the Government Performance and
              Results Act of 1993 and concluded that specific performance
              measures concerning the management of changes to the Idaho
              Cleanup Project did not exist. Finally, we did not rely on computer
              processed data to accomplish our audit objective.



Page 6                                    Objective, Scope, and Methodology
Appendix 1 (continued)

                    An exit conference was held with the Idaho Operations Office's
                    Chief Financial Officer on July 24, 2008.




Page 7                                         Objective, Scope, and Methodology
Appendix 2

                                   RELATED AUDIT REPORT

  •   The Advanced Mixed Waste Treatment Facility Contract at the Idaho National Engineering
      and Environmental Laboratory. (DOE/IG-0622, September 2003). The Department of
      Energy (Department) had not sought to modify the contract price downward to account for
      the reduced scope when the originally planned technologies were replaced with a process
      that was technologically simpler and significantly less costly. Specifically, British Nuclear
      Fuels Limited (BNFL) removed all of the originally proposed treatment technologies and
      relied on a different technology, super-compaction, as the primary treatment system.
      Despite the modifications that represent a major reduction in the scope of work to be
      performed, the Department did not make downward price adjustments commensurate with
      the scope of work eliminations. Idaho officials were principally concerned with achieving
      the intended end product at the agreed-to total price, not that BNFL's original treatment
      technologies were replaced with a simpler, less expensive treatment process. As a result,
      the Department could have paid at least $90 million more than necessary under the
      Advanced Mixed Waste Treatment Facility contract.




Page 8                                                                  Related Audit Report
Appendix 3




Page 9       Management Comments
Appendix 3 (continued)




Page 10                  Management Comments
Appendix 3 (continued)




Page 11                  Management Comments
                                                                    IG Report No. OAS-M-08-10

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
